                         UNITED STATES DEPARTMENT OF EDUCATION
                                        OFFICE OF THE INSPECTOR GENERAL




March 26, 2004


INSPECTION MEMORANDUM

To:               Phillip Maestri, Director
                  Management Improvement Team

From:             Cathy H. Lewis
                  Assistant Inspector General
                  Evaluation, Inspection and Management Services

Subject:          Review of MIT ACTION Item # 179 (ED/OIG I13D0022)


This memorandum provides the results of our inspection of one Action Plan item from
the Department of Education’s (Department’s) Blueprint for Management Excellence.
The EIMS group is examining several Action Plan items related to Human Capital. Our
objective is two-fold: 1) were the items completed as described; and, 2) as completed,
does the action taken help the Department towards its stated Blueprint objective (to
improve the strategic management of the Department’s human capital). In this report, we
examined item #179 (completed on 9/30/02), which calls for the implementation of a new
employee entrance survey process.

Background:

In 2002, the Department implemented an entrance survey to gain information about new
employees’ expectations and experiences with the employment process. This survey was
to target why people chose to work at the Department, what benefits influenced their
decision, and other employment process concerns, in order to improve the recruitment
process. Phase I (Startup) of the implementation started with the Office of Management
(OM) drafting a survey instrument, approved by the Assistant Secretary for Management
and the Union, which was then made web accessible. After OM sent out the initial survey
via email on September 30, 2002 to those employees who joined ED between August 1
and September 30, 2002, Phase II (Data Collection and Reporting) was to continue. The
entire process included the following steps: 1) obtain the names of new employees for
each pay period; 2) send an email request to each new employee to take the survey; 3)
collect the responses and import them into Survey Tracker; 4) generate a quarterly report
of the most important reasons for choosing ED and the most important benefits; and 5)


                             400 MARYLAND AVE., SW., WASHINGTON, DC 20202-1510
                                                www.ed.gov

      Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation.
distribute the report to the Executive Management Team (EMT), OM, and other
interested organizations.1


Objective 1: Did OM complete the actions needed to complete this item?

The action required by item #179 was to:

           “Implement the entrance survey process.”

           The comments field on this item states, “Completed 9/30/02. Survey issued to
           employees hired between 8/1/02 and 9/30/02. Subsequent surveys will be issued
           each quarter.” This item was considered completed on this date because the first
           email was sent to new employees to complete the survey.

Findings:

      •    According to an email sent from Heather Noiwan on September 30, 2002, OM
           issued the first entrance survey to 38 new employees (those hired between August
           1 and September 30, 2002) via email, with participants linking to the online
           survey. Through July 26, 2003, OM has requested that 303 employees complete
           the survey with 202 employees replying. OM employed an Entrance Survey
           Implementation Process and this action item is considered “complete.”

      •    OM only completed steps one through three in its process.

      •    OM never used the information gathered for any discernable purpose and has not,
           to date, issued a formal quarterly report. According to the Entrance Survey
           Implementation Process, information gathered and analyzed would be presented
           to the EMT, OM, and other interested organizations. Thus far, OM has not
           completed steps four or five—to generate a quarterly report and distribute its
           findings. In an interview with the OM staff person responsible for this project, she
           indicated that, at this point there has not been “enough” data gathered, it has not
           revealed anything “shocking,” and the information has only “validated” the
           anecdotal data it already possesses. While OM does have plans to release the data
           at the end of Fiscal Year 2003, it will be for “informational purposes” only.

Objective 2: As completed, does the action taken help the Department towards its
stated Blueprint objective?

Findings:

      •    OM has not fully completed its entrance survey process and the Department has
           not used or distributed the results of the completed surveys. This partial

1
    From the Survey Implementation Process Chart.


                                                    2
       implementation of the action step does not help the Department towards its
       objective of improving the strategic management of human capital.


Recommendations:

In order for Action item #179 to be “complete,” we recommend that the EMT direct the
MIT to address the above issues in the following manner:

   1. Until such time as OM completes these actions, Action item #179 should be
      designated as “open.” Alternatively, if OM believes this survey is not providing
      useful information, it should be discontinued and designated as “closed.”
   2. Require OM to prepare and distribute a report on the findings to the EMT, OM
      and other interested organizations on a quarterly basis; or,
   3. OM should discontinue the survey if the information gathered is not yielding any
      data important enough for OM to use or to distribute to other organizations.

Department Response

In commenting on a draft of this report, the MIT did not concur with Recommendation
No.1, that the MIT should reclassify this action item as “Open” or “Closed.” However,
since OM has decided to follow Recommendation No.3 and discontinue use of the survey
after sharing the results with the EMT (which was done after the draft of this report was
issued), the MIT should designate this item as “Completed” on the date OM decided to
discontinue its use.

A copy of the Department response is included with this report.




                                            3
January 7, 2004

To:        Cathy H. Lewis
           Assistant Inspector General
           Evaluation, Inspection and Management Services

From:      Phillip Maestri, Director
           Management Improvement Team

Subject:   Draft Inspection Memorandum (December 3, 2003)
           Review of MIT Action Item Number 179 (ED/OIG I13D0022)
           “Implement entrance survey process”

Thank you for the opportunity to review and comment on a draft version of this
inspection memorandum.

Response to findings

OM offers the following additional information that should be useful in describing the
entrance survey. The entrance survey process was undertaken for valid reasons. First of
all, research on strategic human capital management indicated that the use of entrance
surveys was a good way to collect information from new employees about why they want
to work in a particular place, and that information can be useful in targeting recruitment
efforts, as well as training and workplace services resources. In addition, the survey was
undertaken as a way to clarify how the hiring process was viewed by new hires.
Anecdotal information from managers doing the hiring indicated concerns with this
process. Both perspectives were deemed important in making process improvements.

During the first year that this survey was administered, OM sent 361 surveys, and 234
surveys were returned for a response rate of 65 percent. OM Performance and Process
Improvement Services staff generated reports of results, which OM shared with OIG for
this investigation. As noted in the draft memo, the usefulness of the survey was limited;
that is, the analysis of the survey results did not reveal anything new, or anything from
which OM identified any new actionable issues. The results were useful to ED’s human
capital management in so far as they confirmed the need for action already underway,
including improving recruitment outreach efforts and streamlining the hiring process.

The draft memo indicates that the entrance survey results were not complied, distributed
or shared with the EMT. The survey results for a one-year period were compiled by the
Director, Performance and Process Improvement Services and presented to the Assistant
Secretary for Management and the Director of Human Resources Services. In addition,
OM presented the relevant findings to the EMT during its December 16 meeting, as part
of a briefing on the results of the Best Places to Work Survey. The EMT did not direct
OM to take any action on the Best Places to Work Survey because ED is currently
addressing findings of that survey through ongoing efforts.




                                            4
Response to recommendations

Recommendation 1: Designate item as “open” or “closed” (rather than complete). The
MIT does not concur. The action required the implementation of the survey. It was
implemented and the results analyzed.
   • Although OM did not complete all the steps it initially planned for this action, the
      MIT designated it as “complete” when the action--as worded in the Blueprint--
      was substantially complete. As occurred here, the “action owner” may change the
      strategy and steps from an initial work plan and still complete the item as worded.
   • The MIT has not used the Blueprint action plan to follow ongoing work related to
      the actions. Actions that require continued involvement by senior leadership have
      been recorded as new items in the strategic plan and Blueprint action plan. This
      action has been superseded by new human capital management activities.

Recommendation 2: Report on the findings on a quarterly basis (and/or)
Recommendation 3: Discontinue the survey.

OM has already completed activities consistent with these recommendations. OM shared
some results of the entrance survey with the EMT on December 16, 2003. Because of the
limited usefulness of the entrance survey and to conserve limited resources, OM will
discontinue the survey, consistent with Recommendation 3.




                                            5
